No. ________________
________________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_________________________________________________
ADAM ALAN HENRY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
VOLUME 1

ANTHONY P. CAPOZZI
Law Offices of Anthony P. Capozzi
1233 W. Shaw Ave., Suite 102
Fresno, CA 93711-3718
T: (559) 221-0200
anthony@capozzilawoffices.com
COUNSEL FOR PETITIONER

APPENDIX
TABLE OF CONTENTS
Volume 1
A.

Opinion, Ninth Circuit Court of Appeals,
Filed January 13, 2020 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1

B.

Order, United States District Court, Denying Defendant’s Motion
for New Trial and Motion for Discovery,
Filed July 13, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-6

C.

Order, Ninth Circuit Court of Appeals, Denying Petition
for Rehearing, Filed February 12, 2020 . . . . . . . . . . . . . . . . . . . . . . . . . C-25

Volume 2
D.

Government Trial Exhibits 28.1 – 28.13 . . . . . . . . . . . . . . . . . . . . . . . . . . . D-26
Filed Under Seal January 9, 2018

E.

Order Sealing Government Trial Exhibits 28.1 – 28.13 . . . . . . . . . . . . . . . E-39

(1 of 9)
Case: 18-10358, 01/13/2020, ID: 11559172, DktEntry: 48-1, Page 1 of 5

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
JAN 13 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,

No.

Plaintiff-Appellee,

U.S. COURT OF APPEALS

18-10358

D.C. No.
1:13-cr-00409-DAD-BAM-1

v.
MEMORANDUM*

ADAM ALAN HENRY,
Defendant-Appellant.

Appeal from the United States District Court
for the Eastern District of California
Dale A. Drozd, District Judge, Presiding
Argued and Submitted December 2, 2019
San Francisco, California
Before: W. FLETCHER, CLIFTON, and MILLER, Circuit Judges.
Adam Henry appeals his convictions for conspiracy to sexually exploit a
minor and for knowingly receiving or distributing material involving the sexual
exploitation of minors, in violation of 18 U.S.C. §§ 2251(a), 2251(e) and 2252(a).
We have jurisdiction under 28 U.S.C. § 1291, and we affirm.
1.

The district court did not abuse its discretion in denying Henry’s

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
APPENDIX A

A-1

(2 of 9)
Case: 18-10358, 01/13/2020, ID: 11559172, DktEntry: 48-1, Page 2 of 5

motions for a mistrial, acquittal, or a new trial on the ground that the government
improperly presented the testimony of a Child Protective Services officer who
described statements Henry made after his arrest. The affirmative use of that
testimony would have violated the Fifth Amendment because Henry’s statements
were the product of a custodial interrogation conducted after Henry had invoked
his right to counsel. See Edwards v. Arizona, 451 U.S. 477 (1981). But the district
court ultimately concluded that the statements were nevertheless admissible to
impeach Henry’s inconsistent testimony. See Harris v. New York, 401 U.S. 222,
224–26 (1971).
We need not decide whether the district court erred in admitting the
testimony, or in not giving a limiting instruction directing the jury to consider it
only for impeachment purposes, see Henry v. Kernan, 197 F.3d 1021, 1029 (9th
Cir. 1999), because any error was harmless beyond a reasonable doubt. The
officer’s testimony—that Henry told him that “his wife was not part of the
charges” brought against Henry—was presented for the limited purpose of
rebutting Henry’s inconsistent statements suggesting that his wife acted alone in
producing, receiving, or distributing child pornography. The government never
otherwise referenced the testimony in the presence of the jury. Moreover, the
testimony had minimal inculpatory value on its own and was cumulative of other
properly admitted evidence. That evidence overwhelmingly showed that Henry

2

A-2

(3 of 9)
Case: 18-10358, 01/13/2020, ID: 11559172, DktEntry: 48-1, Page 3 of 5

conspired with his wife to produce child pornography and knowingly received or
distributed child pornography.
2.

Nor did the district court err in concluding that the government

complied with its discovery obligations. Henry argues that the government violated
his due process rights because it did not disclose the identity of the victim depicted
in an exhibit until just a few days before trial. But after holding an evidentiary
hearing, the district court found that the government had made the exhibit
“reasonably available” to Henry’s forensic expert more than three years earlier,
18 U.S.C. § 3509(m)(2)(A), and that finding is not clearly erroneous. See United
States v. Zaragoza-Moreira, 780 F.3d 971, 977 (9th Cir. 2015). Even if the
identification of a victim depicted in a previously disclosed exhibit constitutes
“additional evidence,” the government complied with its duty to promptly disclose
that information to Henry’s counsel before trial. See Fed. R. Crim. P. 16(c).
3.

The district court also did not err in concluding that the evidence was

sufficient to support Henry’s conviction for conspiracy to sexually exploit a minor
in violation of 18 U.S.C. § 2251(a). Section 2251(a) prohibits “producing any
visual depiction” of a minor engaged in “sexually explicit conduct,” which is
defined in relevant part as the “lascivious exhibition of the anus, genitals, or pubic
area.” Id. § 2256(2)(A)(v); see also United States v. Weigand, 812 F.2d 1239,
1244–45 (9th Cir. 1987). The government presented evidence that Henry and his

3

A-3

(4 of 9)
Case: 18-10358, 01/13/2020, ID: 11559172, DktEntry: 48-1, Page 4 of 5

wife set up hidden cameras in their bathroom and bedroom shortly before their 14year-old babysitter arrived, and that they used those cameras to produce videos
depicting the minor undressing and showering. In one hidden-camera video,
Henry’s wife encouraged the minor to try on and pose in lingerie. The government
also presented evidence that Henry created 13 screenshot images from those videos
and saved the images in a password-protected file named after the minor, alongside
other files containing child pornography.
We are not persuaded by Henry’s argument that because the videos only
briefly depict the minor’s nude pubic area, the evidence is insufficient to support
his conviction. Even assuming that the videos are not themselves depictions of
sexually explicit conduct, any rational juror could have viewed the evidence as
sufficient to establish that Henry conspired with his wife to produce such
depictions. See United States v. Johnston, 789 F.3d 934, 937, 940–41 (9th Cir.
2015) (affirming conviction for conspiracy to produce child pornography based on
evidence that the defendant asked his co-conspirator to take photos of nude
children); see also United States v. Sims, 708 F.3d 832, 835 (6th Cir. 2013) (“To
convict [the defendant] of attempted production of child pornography, the
government does not need to prove that the videos of [the minor] were actually
lascivious.”).
Henry further argues that the evidence was insufficient to show that the

4

A-4

(5 of 9)
Case: 18-10358, 01/13/2020, ID: 11559172, DktEntry: 48-1, Page 5 of 5

hidden cameras and other recovered devices were transported in interstate or
foreign commerce. Because Henry raised that argument for the first time in his
reply brief, we decline to consider it. See United States v. King, 257 F.3d 1013,
1029 n.5 (9th Cir. 2001).
4.

The district court did not err in denying Henry’s post-trial motions

based on alleged prosecutorial misconduct. Because Henry did not object during
trial, his claim is subject to plain-error review. In his closing argument, the
prosecutor told the jury that Henry’s counsel’s job was to “distract and to deflect
and to give [the jury] alternate facts or argue things that aren’t necessarily what
actually happened.” Assuming, without deciding, that those comments were
improper, the statements were isolated in the context of the entire trial and did not
“seriously affect[] the fairness, integrity, or public reputation of judicial
proceedings.” United States v. Alcantara-Castillo, 788 F.3d 1186, 1191 (9th Cir.
2015) (quoting United States v. Combs, 379 F.3d 564, 568 (9th Cir. 2004)); id. at
1194–95. Henry’s remaining allegations of prosecutorial misconduct lack merit.
AFFIRMED.

5

A-5

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 1 of 19
1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

UNITED STATES OF AMERICA,

12

Plaintiff,

13
14

No. 1:13-cr-00409-DAD-BAM

v.
ADAM ALAN HENRY,

15

ORDER DENYING DEFENDANT’S
MOTIONS FOR JUDGMENT OF
ACQUITTAL, MOTION FOR A NEW TRIAL,
AND MOTION FOR DISCOVERY

Defendant.
(Doc. Nos. 254, 260)

16
17

This matter is before the court on defendant Adam Henry’s motion for a judgment of

18
19

acquittal—or in the alternative, motion for a new trial—and motion for discovery. (Doc. No. 254,

20

260.)
BACKGROUND

21

Defendant Henry was charged by way of a superseding indictment with conspiracy to

22
23

sexually exploit a minor in violation of 18 U.S.C. §§ 2251(a) and (e), and receipt and distribution

24

of a visual depiction of a minor engaged in sexually explicit conduct in violation of 18 U.S.C.

25

§ 2252(a)(2). (Doc. No. 110.) After lengthy pretrial proceedings, on November 7, 2017 the jury

26

trial commenced. On November 17, 2017, after approximately five hours of deliberation over

27

two days, the jury returned their verdict, finding defendant guilty on both counts. (Doc. No. 236.)

28

/////
1
APPENDIX B

B-6

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 2 of 19
1

After seeking and receiving an extension of time in which to file post-trial motions (Doc.

2

Nos. 243, 244), on January 8, 2018, defendant filed his motion for a judgment of acquittal

3

pursuant to Rule 29(c) of the Federal Rules of Criminal Procedure, and also moved in the

4

alternative for a new trial pursuant to Federal Rule of Criminal Procedure 33(a). (Doc. No. 254.)

5

On January 10, 2018, defendant filed a motion for discovery related to his motion for a new trial.

6

(Doc. No. 260.) The government filed its opposition on February 26, 2018. (Doc. No. 278.)

7

Defendant filed his reply on April 2, 2018. (Doc. No. 285.) After several stipulated

8

continuances, an initial hearing on defendant’s motions was held on April 30, 2018. Assistant

9

United States Attorneys David Gappa and Ross Pearson appeared for the government. Attorney

10

Anthony Capozzi appeared on behalf of defendant Henry. At that hearing, the court determined

11

that an evidentiary was necessary with respect to one aspect of defendant’s motion. That

12

evidentiary hearing was conducted on May 29, 2018, at which time the court also heard further

13

argument from the parties.
Having considered the parties’ briefing, and having heard the arguments of counsel, for

14
15

the reasons set forth below defendants’ motions will be denied.

16
17
18

LEGAL STANDARDS
A.

Judgment of Acquittal
“A defendant may move for a judgment of acquittal, or renew such a motion, within 14

19

days after a guilty verdict or after the court discharges the jury, whichever is later.” Fed. R. Crim.

20

P. 29(c)(1). In reviewing a challenge to the sufficiency of the evidence, the court must ask

21

whether, viewing “the evidence in the light most favorable to the prosecution, any rational trier of

22

fact could have found the essential elements of the crime beyond a reasonable doubt.” United

23

States v. Hursh, 217 F.3d 761, 767 (9th Cir. 2000) (quoting United States v. Hubbard, 96 F.3d

24

1223, 1226 (9th Cir. 1996)); see also United States v. Garrison, 888 F.3d 1057, 1063 (9th Cir.

25

2018). The Supreme Court has established a two-step inquiry for considering a challenge to a

26

conviction based on sufficiency of the evidence. See Jackson v. Virginia, 443 U.S. 307, 319

27

(1979). “First, a reviewing court must consider the evidence presented at trial in the light most

28

favorable to the prosecution.” United States v. Nevils, 598 F.3d 1158, 1164 (9th Cir. 2010) (en
2
B-7

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 3 of 19
1

banc) (citing Jackson, 443 U.S. at 319). “Second, the reviewing court must determine whether

2

this evidence, so viewed, is adequate to allow any rational trier of fact to find the essential

3

elements of the crime beyond a reasonable doubt.” United States v. Katakis, 800 F.3d 1017, 1023

4

(9th Cir. 2015) (internal ellipses and quotation marks omitted) (quoting Nevils, 598 F.3d at 1164).

5

“[E]vidence is insufficient to support a verdict where mere speculation, rather than reasonable

6

inference, supports the government’s case, or where there is a total failure of proof of a requisite

7

element.” Id. (internal quotation marks and citations omitted). However, “the government does

8

not need to rebut all reasonable interpretations of the evidence that would establish the

9

defendant’s innocence, or ‘rule out every hypothesis except that of guilt beyond a reasonable

10

doubt.’” Nevils, 598 F.3d at 1164 (quoting Jackson, 443 U.S. at 326); see also United States v.

11

Aubrey, 800 F.3d 1115, 1127 (9th Cir. 2015).

12

B.

New Trial

13

In addition, “[u]pon the defendant’s motion, the court may vacate any judgment and grant

14

a new trial if the interest of justice so requires.” Fed. R. Crim. P. 33(a). “A district court’s power

15

to grant a motion for new trial is much broader than its power to grant a motion for judgment of

16

acquittal.” United States v. Kellington, 217 F.3d 1084, 1095 (9th Cir. 2000). In considering a

17

motion for a new trial, “[t]he district court need not view the evidence in the light most favorable

18

to the verdict; it may weigh the evidence and in so doing evaluate for itself the credibility of the

19

witnesses.” Kellington, 217 F.3d at 1095; see also United States v. Katakis, 252 F. Supp. 3d 988,

20

992 (E.D. Cal. 2017). “If the court concludes that, despite the abstract sufficiency of the evidence

21

to sustain the verdict, the evidence preponderates sufficiently heavily against the verdict that a

22

serious miscarriage of justice may have occurred, it may set aside the verdict, grant a new trial,

23

and submit the issues for determination by another jury.” Kellington, 217 F.3d at 1097 (quoting

24

United States v. Lincoln, 630 F.2d 1313, 1319 (8th Cir. 1980)). Nonetheless, such authority is to

25

be exercised only where extraordinary circumstances are presented. United States v. Imran, 964

26

F.2d 1313, 1318 (2d Cir. 1992); Katakis, 252 F. Supp. 3d at 992.

27

/////

28

/////
3
B-8

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 4 of 19
1

DISCUSSION

2

Here, defendant Henry has raised multiple arguments in support of his motion for entry of

3

a judgment of acquittal or, in the alternative, a new trial. The court addresses each in turn.

4

A.

5

Sufficiency of the Evidence on Count One
Defendant first contends that the evidence introduced at his trial, as a matter of law, was

6

insufficient to support a guilty verdict on count one of the indictment, charging him with

7

conspiracy to sexually exploit a minor in violation of 18 U.S.C. §§ 2251(a) and (c).

8

The court instructed the jury that to find defendant guilty of count one of the indictment,

9

the government must prove beyond a reasonable doubt that: (1) there was an agreement between

10

two or more persons to commit the crime of sexual exploitation of a minor; and (2) the defendant

11

became a member of the conspiracy knowing of at least one of its objects and intending to

12

accomplish it. (Doc. No. 241 at 34.) To satisfy their burden as to that charge, the government

13

introduced evidence at trial that defendant and his wife, Angele Henry, acted in concert to place

14

and arrange a hidden camera in the bathroom of their home, which captured images of the minor

15

victim A.T. These images, which depicted A.T. in various stages of undress, were then sorted,

16

saved, and stored on a password-protected hard drive in defendant’s home.

17

Although defendant appears to concede (at least for the sake of argument) that there was

18

evidence presented that he and his wife conspired, he argues the evidence at trial was insufficient

19

to demonstrate that they conspired to sexually exploit a minor. In support of this argument,

20

defendant emphasizes that the hidden camera in their bathroom was installed high above the

21

ground, and “was not situated as to focus on the lower extremities of the body.” (Doc. No. 254 at

22

3.) Defendant takes the position that while his and his wife’s actions may have amounted to

23

voyeurism, they did not constitute sexual exploitation. Defendant also argues that under the so-

24

called Dost factors, the images he secretly captured of A.T. did not amount to a lascivious

25

exhibition, and therefore did not depict sexually explicit conduct. See United States v. Dost, 636

26

F. Supp. 828, 832 (S.D. Cal. 1986), aff’d sub nom. United States v. Wiegand, 812 F.2d 1239 (9th

27

Cir. 1987), and aff’d, 813 F.2d 1231 (9th Cir. 1987).

28

/////
4
B-9

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 5 of 19
1

As noted above, defendant was charged in count one of the superseding indictment with

2

conspiracy to sexually exploit a minor; he was not charged with the substantive offense of

3

sexually exploiting a minor. When an individual is charged with a conspiracy offense, “[t]he

4

agreement is the essence of the crime.” United States v. Iriarte-Ortega, 113 F.3d 1022, 1024 (9th

5

Cir. 1997); see also United States v. Loveland, 825 F.3d 555, 561 (9th Cir. 2016) (“The

6

agreement is an element of the crime, and has to be proved.”). Moreover, conspiracy to violate

7

18 U.S.C. § 2251 does not require that an overt act be committed for the crime of conspiracy to

8

be fully accomplished. See United States v. Grovo, 653 Fed. App’x 512, 514 (9th Cir. 2016)

9

(“Unlike the general conspiracy statute, which expressly requires proof of an overt act, § 2251(e)

10

makes no mention of such a requirement.”) (citing United States v. Skillman, 922 F.2d 1370, 1375

11

(9th Cir. 1990)).1 Thus, defendant’s conviction on count one does not stand or fall depending

12

upon whether the images of A.T. he was successful in capturing portrayed sexually explicit

13

conduct.

14

Nonetheless, whether the images constituted a lascivious exhibition—and therefore

15

amounted to sexually explicit conduct—is relevant to the jury’s determination of whether a

16

conspiracy to sexually exploit a minor existed. See United States v. Reed, 575 F.3d 900, 924 (9th

17

Cir. 2004) (noting that “a jury may infer the existence of an agreement from circumstantial

18

evidence, such as the defendant’s conduct”). If the defendant recorded and compiled sexually

19

exploitative images of the victim, and then stored them in a place that was readily accessible only

20

to he and his co-conspirator, that is some evidence that sexual exploitation was one of the aims of

21

the conspiracy. In evaluating whether the images captured by the hidden camera constituted a

22

lascivious exhibition under 18 U.S.C. § 2251, the jury at defendant’s trial was instructed on the

23

Dost factors. These, are, respectively:
1) whether the focal point of the visual depiction is on the child’s
genitalia or pubic area;

24
25
26
27
28

/////
1

Citation to this unpublished Ninth Circuit opinion is appropriate pursuant to Ninth Circuit Rule
36-3(b).
5
B-10

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 6 of 19
1

2) whether the setting of the visual depiction is sexually
suggestive, i.e., in a place or pose generally associated with
sexual activity;

2
3

3) whether the child is depicted in an unnatural pose, or in
inappropriate attire, considering the age of the child;

4
4) whether the child is fully or partially clothed, or nude;
5
6

5) whether the visual depiction suggests sexual coyness or a
willingness to engage in sexual activity;

7

6) whether the visual depiction is intended or designed to elicit a
sexual response in the viewer.

8
9

Dost, 636 F. Supp. at 832.
Given the evidence introduced at trial, consideration of the first prong of the Dost factors

10
11

may be viewed as somewhat favorable to defendant since, as defendant argues, the hidden camera

12

he installed in the bathroom was positioned high and arguably did not focus on a specific portion

13

of the bathroom, let alone on any victim’s genitalia or pubic area. Consideration of the second

14

factor cuts both ways: some of the images stored on the defendant’s password-protected side of

15

the hard drive at his home were taken in the bathroom, while others were taken in the couples’

16

bedroom, the latter being a place associated with sexual activity. See United States v. Steen, 634

17

F.3d 822, 827 (5th Cir. 2011). The third factor is of only limited relevance in this case because

18

the victim was obviously unaware that she was being recorded by hidden cameras. Id. at 827

19

n.23. Under the fourth Dost factor, several of the images introduced in evidence at trial depicted

20

A.T. as only partially clothed, with some depicting her fully exposed breasts or buttocks.

21

Consideration of this factor weighs in favor of finding the images to constitute a lascivious

22

exhibition. The fifth factor is irrelevant in this case because, as with the third factor, the victim

23

here was unaware that she was being filmed surreptitiously. Finally, under the sixth Dost factor,

24

the images in question were stored on the password-protected side of defendant’s hard drive

25

alongside other pornographic material, suggesting that the images were intended to elicit a sexual

26

response from the viewer. Thus, at least some of the Dost factors are triggered by the evidence

27

presented by the government at defendant’s trial.

28

/////
6
B-11

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 7 of 19
1

The court’s review on a motion for judgment of acquittal is limited to the question of

2

whether “any rational trier of fact” could have found the defendant guilty of the charged offense

3

beyond a reasonable doubt. United States v. Espinoza-Valdez, 889 F.3d 654, 656 (9th Cir. 2018);

4

Katakis, 800 F.3d at 1023. At trial defendant contested whether he and his wife acted with the

5

purpose of sexually exploiting A.T., as opposed to some other purpose. In this regard, the

6

defense advanced an alternative explanation – that defendant’s wife was an “exhibitionist” who

7

“would record herself in various activities alone and she wanted to be able to continue doing

8

that,” but that he did not intend to videotape any other people in their bathroom. (Doc. No. 270 at

9

24:20–25, 25:1–4.) Thus, rather than agreeing to sexually exploit a minor, defendant argues that

10
11

the couples’ agreement was merely to record his wife, Angele Henry, a consenting adult.
Although the explanation for his actions offered by defendant is perhaps plausible, it is

12

clearly not the only conclusion that a reasonable factfinder could draw from the evidence

13

introduced at defendant’s trial. The prosecution presented evidence showing the defendant and

14

his wife setting up the hidden camera together, adjusting the camera angles, taking test videos

15

including one of defendant examining A.T.’s underwear and displaying it to the hidden camera.

16

The government also introduced evidence that from the videos he obtained of A.T., the defendant

17

created screen shots of the minor and saved them in a separate folder on the password protected

18

side of his hard drive with A.T.’s name on it. From this evidence a reasonable jury could find

19

that the defendant and his wife conspired to sexually exploit A.T. In short, the jury was

20

confronted with competing explanations as to why the defendant installed a hidden camera in the

21

bathroom of his home and rejected his version of events, as it was entitled to do. See United

22

States v. Johnston, 789 F.3d 934, 941 (9th Cir. 2015) (“We decline to second-guess a reasonable

23

jury’s interpretation of the evidence.”); Katakis, 800 F.3d at 1023 (government need not rebut all

24

reasonable interpretations of the evidence that would establish the defendant’s innocence).

25

Defendant’s motion for judgment of acquittal will, therefore, be denied.

26

For similar reasons, defendant’s motion for a new trial will be denied as well. As

27

indicated above, there was arguably competing evidence as to the object of the conspiracy

28

between defendant and his wife. However, the evidence introduced at trial certainly does not
7
B-12

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 8 of 19
1

preponderate against the jury’s verdict as to count one. Kellington, 217 F.3d at 1097. The

2

evidence at trial established that defendant and his wife collaborated to install a hidden camera in

3

their bathroom. This camera captured multiple images of A.T., some of which depicted her

4

partially nude and which could reasonably be found to involve lascivious exhibition. Moreover,

5

those images were stored by defendant on a password-protected hard drive kept in his home, and

6

the evidence at trial suggested that only defendant and his wife, the two co-conspirators, had

7

access to that hard drive. Based on this evidence, a reasonable trier of fact could find defendant

8

guilty of the charge brought against him in count one. The court is not persuaded that a

9

miscarriage of justice occurred as a result of the jury doing so. Accordingly, plaintiff’s motion

10

for a new trial based on the claimed insufficiency of the evidence will be denied.

11

B.

12

Testimony of Jose Antonio Ruezga
Next, defendant moves for a new trial based upon the testimony of government rebuttal

13

witness Jose Antonio Ruezga, who at the time of defendant’s arrest was an employee of

14

Stanislaus County Child Protective Services (“CPS”). (Doc. No. 247 at 4:20–22.) Ruezga

15

accompanied Ceres Police Department Detectives Arthur Hively and Britton Moore and FBI

16

Agent Mark Lucas on November 13, 2013, when they executed a search warrant on defendant’s

17

residence. (Id. at 20:18–25, 21:1–3.) Ruezga stated that he accompanied the detectives and the

18

agent in order to conduct his own CPS investigation. (Id. at 21:4–7.) At the home, Agent Lucas

19

placed defendant in handcuffs and advised him of his Miranda rights, at which time defendant

20

invoked his right to an attorney. (Id. at 37:6–19.) At some point thereafter, while defendant was

21

still handcuffed in his home, Ruezga posed several questions to him. Throughout this process,

22

according to the defendant, he remained handcuffed, had been told he could not move, and had an

23

agent positioned near him to ensure he did not leave. (Id. at 39:16–21.)

24

When the government presented Ruezga’s testimony in rebuttal, defendant’s counsel

25

moved to strike it and moved for a mistrial, arguing that defendant was in custody, had invoked

26

his Miranda rights, and that Ruezga had violated those rights by questioning him nonetheless.

27

The court found that defendant was in custody at the time of the arrest, but denied both motions

28

without prejudice after finding that Ruezga was not a law enforcement officer and was not acting
8
B-13

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 9 of 19
1

in concert with law enforcement officers with respect to his conversation with the defendant. (Id.

2

at 40:11–22.) In moving for a new trial, defendant renews his contention that his Miranda rights

3

and his right to counsel were violated.

4

The Fifth Amendment to the United States Constitution provides that “[n]o person ... shall

5

be compelled in any criminal case to be a witness against himself[.]” U.S. CONST. amend. V.

6

The Supreme Court has “recognized that custodial interrogations, by their very nature, generate

7

‘compelling pressures which work to undermine the individuals will to resist and to compel him

8

to speak where he would not otherwise do so freely.’” Moran v. Burbine, 475 U.S. 412, 420

9

(1986) (quoting Miranda, 384 U.S. at 467). “To combat this inherent compulsion, and thereby

10

protect the Fifth Amendment privilege against self-incrimination, Miranda imposed on the police

11

an obligation to follow certain procedures in their dealings with the accused.” Moran, 475 U.S. at

12

420; see also Dickerson v. United States, 530 U.S. 428, 435 (2000); United States v. IMM, 747

13

F.3d 754, 764 (9th Cir. 2014). Specifically, the Supreme Court has held the Constitution requires

14

that a person questioned by law enforcement officers after being
“taken into custody or otherwise deprived of his freedom of action
in any significant way” must first “be warned that he has a right to
remain silent, that any statement he does make may be used as
evidence against him, and that he has a right to the presence of an
attorney, either retained or appointed.”

15
16
17
18

Stansbury v. California, 511 U.S. 318, 322 (1994) (quoting Miranda, 384 U.S. at 444); see also

19

IMM, 747 F.3d at 764. “An officer’s obligation to administer Miranda warnings attaches . . .

20

only where there has been such a restriction on a person’s freedom as to render him in custody.”

21

Stansbury, 511 U.S. at 322 (internal quotation marks omitted) (quoting Oregon v. Mathiason, 429

22

U.S. 492, 495 (1977)).

23

The Supreme Court has defined “custodial interrogation” as “questioning initiated by law

24

enforcement officers after a person has been taken into custody or otherwise deprived of his

25

freedom of action in any significant way.” Miranda, 384 U.S. at 444 (1966). This definition has

26

been refined to recognize that “‘interrogation’ under Miranda refers not only to express

27

questioning, but also to any words or actions on the part of the police (other than those normally

28

attendant to arrest and custody) that the police should know are reasonably likely to elicit an
9
B-14

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 10 of 19
1

incriminating response from the suspect.” Rhode Island v. Innis, 446 U.S. 291, 301 (1980); see

2

also Kemp v. Ryan, 638 F.3d 1245, 1255 (9th Cir. 2011).

3

Meanwhile, the Sixth Amendment guarantees the right to counsel “in all criminal

4

prosecutions.” U.S. CONST. amend. VI. “The essence of this right . . . is the opportunity for a

5

defendant to consult with an attorney and to have him investigate the case and prepare a defense

6

for trial.” Michigan v. Harvey, 494 U.S. 344, 348 (1990) (citing Powell v. Alabama, 287 U.S. 45,

7

53 (1932)). The right applies “at all critical stages of prosecution.” United States v. Rice, 776

8

F.3d 1021, 1024 (9th Cir. 2015) (citing Marshall v. Rodgers, 569 U.S. 58, 62 (2013) and Iowa v.

9

Tovar, 541 U.S. 77, 80–81 (2004)). The Supreme Court has stated that the Sixth Amendment’s

10

guarantee of a right to counsel attaches no later than “the initiation of adversary judicial criminal

11

proceedings—whether by way of formal charge, preliminary hearing, indictment, information, or

12

arraignment.” Rothgery v. Gillespie County, 554 U.S. 191, 198 (2008) (internal quotation marks

13

omitted) (quoting United States v. Gouveia, 467 U.S. 180, 188 (1984)); see also Kirby v. Illinois,

14

406 U.S. 682, 690 (1972) (noting that the initiation of adversary judicial criminal proceedings “is

15

far from a mere formalism” because “it is only then that the government has committed itself to

16

prosecute”). If, at any time during an interview, a suspect requests counsel, “he is not subject to

17

further questioning until a lawyer has been made available or the suspect himself reinitiates

18

conversation.” Davis v. United States, 512 U.S. 452, 458 (1994) (citing Edwards v. Arizona, 451

19

U.S. 477, 484–85 (1981)). Thus, “a suspect who has invoked the right to counsel cannot be

20

questioned regarding any offense unless an attorney is actually present.” Id. (citing Minnick v.

21

Mississippi, 498 U.S. 146 (1990) and Arizona v. Roberson, 486 U.S. 675 (1988)).

22

Defendant argues that Ruezga’s questioning of him following his arrest violated his rights

23

under the Fifth and Sixth Amendment and that introduction of his statements into evidence at trial

24

by way of Ruezga’s testimony constituted error, necessitating the granting of a new trial. As to

25

the alleged Fifth Amendment violation, defendant contends that Ruezga was a law enforcement

26

officer, that defendant was in custody, had clearly invoked his rights under Miranda, and had

27

specifically requested an attorney, thereby precluding any further questioning. As to the alleged

28

Sixth Amendment violation, defendant also points out that he had already been arraigned in
10
B-15

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 11 of 19
1

parallel state court proceedings prior to this search and his arrest by FBI Agent Lucas, and

2

therefore was in fact represented by counsel at the time Ruezga questioned him. (Doc. No. 254 at

3

12.) Defendant contends that under these circumstances his being questioned outside the

4

presence of his attorney violated his Sixth Amendment right to counsel.

5

For purposes of resolving the pending motion, the court will assume, without deciding,

6

that Ruezga was a law enforcement officer, that defendant was in custody at the time Ruezga

7

questioned him, that defendant unambiguously invoked his rights to remain silent and to an

8

attorney, and that he was represented by an attorney in his state court case at the time.

9

Nonetheless, the court concludes that no constitutional violation occurred here. This conclusion

10

is based upon the fact that Ruezga’s testimony was not introduced in the prosecution’s case-in-

11

chief. Instead, Ruezga testified as a rebuttal witness following defendant’s own testimony at trial.

12

In his trial testimony, defendant denied that he had ever intentionally downloaded child

13

pornography but rather implied by his answers that his wife, Angele Henry, may have done so

14

instead. (See Doc. No. 270 at 34:11–25, 35, 36:1.) The defense advanced this theory in two

15

ways. First, defendant focused on the search terms that, according to the government, were used

16

to search for and then download the child pornography. Some of these search terms appeared to

17

be in French, and defendant testified that he essentially spoke no French, while his wife was at

18

least somewhat conversant in the language. (Id. at 33:15–25; see also id. at 35:17–24.) The

19

obvious implication from that testimony was that Angele, rather than defendant, entered the

20

search terms in question, and was therefore responsible for downloading the child pornography.

21

Second, defendant testified that Angele had used the computer from which child pornography had

22

been downloaded, but that he had never used that computer to download such material. (Id. at

23

48:25, 49:1–11.) There was similarly testimony throughout the trial by various other witnesses

24

that Angele would sometimes use defendant’s computer at his place of work. Collectively,

25

introduction of this evidence sought to cast doubt on the conclusion that defendant attempted to

26

download child pornography, and instead implicated defendant’s wife Angele as having done so.

27

This theory was made explicit in the defense’s closing argument, where defense counsel

28

explicitly argued that “she’s the one who’s responsible for this.” (Doc. No. 248 at 3:15–16.)
11
B-16

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 12 of 19
1

The government attempted to challenge this narrative by offering Ruezga’s testimony on

2

rebuttal. See Riel v. Warden, No. CIV. S-01-0507 LKK, 2010 WL 4628142, at *4 (E.D. Cal.

3

Nov. 5, 2010) (citing Marmo v. Tyson Fresh Meats, Inc., 457 F.3d 748, 759 (8th Cir. 2006))

4

(“[T]he term ‘rebuttal’ refers to a witness who is intended to contradict evidence introduced by

5

the other party.”). According to Ruezga, during his conversation with defendant, defendant

6

explained to him that “his wife was not part of the charges that were brought about by the

7

incident.” (Doc. No. 247 at 5:14–15.) Were the jury to credit Ruezga’s testimony, that would

8

undermine the defense’s theory that Angele Henry was the one responsible for downloading the

9

unlawful material. Through his own statements to Ruezga, defendant implicated himself and

10
11

attempted to exonerate his wife, Angele.
While statements taken in violation of Miranda are not admissible in the prosecution’s

12

case-in-chief, voluntary statements taken in violation of Miranda may be introduced at trial for

13

impeachment purposes. Harris v. New York, 401 U.S. 222, 224–26 (1971) (“The shield provided

14

by Miranda cannot be perverted into a license to use perjury by way of a defense, free from the

15

risk of confrontation with prior inconsistent utterances.”); United States v. Gomez, 725 F.3d 1121,

16

1126 (9th Cir. 2013) (“But a defendant's voluntary statements—even if obtained in violation of

17

Miranda—are admissible as impeachment evidence.”); Pollard v. Galaza, 290 F.3d 1030, 1033

18

(9th Cir. 2002). This same logic has been extended to Sixth Amendment violations as well:

19

although “[t]he prosecution must not be allowed to build its case against a criminal defendant

20

with evidence acquired in contravention of constitutional guarantees and their corresponding

21

judicially created protections,” once a defendant chooses to testify, “he assumes a reciprocal

22

‘obligation to speak truthfully and accurately.’” Harvey, 494 U.S. at 351 (quoting Harris, 401

23

U.S. at 225); see also United States v. Rosales-Aguilar, 818 F.3d 965, 969–70 (9th Cir. 2016), pet.

24

for cert. filed (U.S. May 30, 2018) (No. 17-9205); United States v. Ortega, 203 F.3d 675, 681

25

(9th Cir. 2000) (“Although the INS interview violated the Sixth Amendment so that the

26

statements relating to the gun offenses may not be admitted as substantive evidence in the

27

government’s case-in-chief, the government may still use these statements to impeach Ortega’s

28

inconsistent testimony.”), holding modified on other grounds by United States v. Larson, 495
12
B-17

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 13 of 19
1

F.3d 1094 (9th Cir. 2007). To the extent defendant’s statements to Ruezga at the time of the

2

search were made voluntarily, the government is not precluded from introducing those statements

3

in rebuttal, even if the statements were obtained in violation of defendant’s constitutional rights.

4

The only remaining question then is whether defendant’s statement to Ruezga was given

5

voluntarily, and was therefore admissible in rebuttal. See Pollard, 290 F.3d at 1033 (“Although a

6

statement, taken in violation of Miranda, may not be used substantively in the prosecution’s case-

7

in-chief, such a statement, if voluntary, may be used for impeachment should the Defendant

8

testify inconsistently.”) (citing Harris, 401 U.S. at 224–26). “[I]f the statement was procured

9

such that it was involuntary, then the statement is excluded for all purposes.” Id. (citing Harvey,

10

494 U.S. at 351 and Henry v. Kernan, 197 F.3d 1029, 1029 (9th Cir. 1999)). The test for whether

11

a statement is voluntary is whether it is “the product of an essentially free and unconstrained

12

choice by its maker.” Collazo v. Estelle, 940 F.2d 411, 416 (9th Cir. 1991) (quoting Culombe v.

13

Connecticut, 367 U.S. 568, 602 (1961)). “In determining whether a statement is voluntary, the

14

court looks at the surrounding circumstances and the combined effect of the entire course of the

15

officer’s conduct upon the defendant.” Pollard, 290 F.3d at 1033 (citing United States v.

16

Polanco, 93 F.3d 555, 560 (9th Cir. 1996)). Factors such as the declarant’s state of mind, the

17

physical environment in which the statement was given, the manner in which the declarant was

18

questioned, the questioner’s tone of voice, and whether the questioner made any promises or

19

representations are all relevant considerations. Id. at 1033–34 (citing Mincey v. Arizona, 437 U.S.

20

385, 398–99 (1978) and Henry, 197 F.3d at 1027 n.3)).

21

Here, defendant has advanced no argument that his statement to Ruezga was given

22

involuntarily, and the court finds no basis to conclude that his statement was in any way coerced.

23

At trial, defendant testified that when the agents executed the warrant, they entered his house with

24

guns drawn, put him in handcuffs and proceeded to search the house. (Doc. No. 247 at 36.)

25

Defendant was informed that he was under arrest, placed in a chair, and advised of his rights

26

under Miranda, which he invoked. (Id. at 37:4–19.) Defendant generally had the impression that

27

he was not free to leave. (Id. at 39:14–21.) At some point thereafter, Ruezga approached

28

defendant and began questioning him. (Id. at 38:9–22.) Although this evidence tends to show
13
B-18

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 14 of 19
1

that defendant was in custody at the time of the questioning, it does not demonstrate that

2

defendant’s response to the inquiry was in any way involuntarily made. The exchange occurred

3

in defendant’s own home, there is no evidence suggesting that the exchange was hostile or

4

aggressive in any way, and neither Ruezga nor anyone else appears to have made any misleading

5

promises or representations to defendant. There is similarly no evidence before the court that

6

defendant was in a distressed state of mind at the time. See Pollard, 290 F.3d at 1034 (noting that

7

the Ninth Circuit had previously “found it significant that the declarant’s statement was

8

incoherent, confused, disjointed, and throughout the interview the declarant was shaken,

9

frightened, and crying”) (citing Henry, 197 F.3d at 1027–28).

10

In short, the court finds nothing to indicate that Ruezga or any of the other officers

11

extracted the statement in question by employing coercive or manipulative tactics. Accordingly,

12

no error was committed in admitting Ruezga’s testimony rebutting that of defendant presented in

13

his defense. Defendant’s motion for a new trial based on this ground will be denied as well.

14

C.

15
16
17
18
19
20
21
22

The Prosecutor’s Comments in Rebuttal
Defendant next moves for a new trial due to the prosecutor’s rebuttal argument to the jury.

In his rebuttal argument, the prosecutor stated as follows:
So we want to thank you for your service. You play a very
important part in this process. And we’re asking you to find the
defendant guilty of these two counts. And I want to let you know
that Mr. Capozzi did a great job on his closing. And the defendant
is entitled to be well represented. Mr. Capozzi is the most
experienced attorney here. And he’s done his job. But what is his
job? His job as a defense attorney is to distract and to deflect and to
give you alternate facts or argue things that aren’t necessarily what
actually happened. And he started by bringing up something
irrelevant for this case.

23

(Doc. No. 250 at 17:3–13.) Defendant characterizes this argument as “backhandedly praising

24

defense counsel” and “akin to vouching in addition to improper comment about opposing

25

counsel.” (Doc. No. 354 at 19.)

26

“When prosecutorial conduct is called in question, the issue is whether, considered in the

27

context of the entire trial, that conduct appears likely to have affected the jury’s discharge of its

28

duty to judge the evidence fairly.” United States v. Frederick, 78 F.3d 1370, 1379 (9th Cir. 1996)
14
B-19

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 15 of 19
1

(quoting United States v. Simtob, 901 F.2d 799, 806 (9th Cir. 1990)); see also United States v.

2

Sanchez, 659 F.3d 1252, 1257 (9th Cir. 2011). Because defense counsel did not timely object to

3

this aspect of the prosecutor’s argument at trial, the court reviews for plain error. United States v.

4

Alcantara-Castillo, 788 F.3d 1186, 1190 (9th Cir. 2015). Defendant is entitled to relief if: “(1)

5

there was error; (2) it was plain; (3) it affected the defendant’s substantial rights; and (4) ‘viewed

6

in the context of the entire trial, the impropriety seriously affected the fairness, integrity, or public

7

reputation of judicial proceedings.’” Id. at 1191 (quoting United States v. Combs, 379 F.3d 564,

8

568 (9th Cir. 2004)).
“The prosecutor’s job isn’t just to win, but to win fairly, staying well within the rules.”

9
10

United States v. Kojayan, 8 F.3d 1315, 1323 (9th Cir. 1993) (citing United States v. Hill, 953 F.2d

11

452, 458 (9th Cir. 1991)). In the undersigned’s view, aspects of the prosecutor’s rebuttal

12

argument appear, upon reflection, to have departed from that mandate. By stating that the job of

13

a defense attorney is to present the jury with “alternate facts” and “things that aren’t necessarily

14

what actually happened,” the prosecutor suggested to the jury that defense counsel had

15

intentionally provided them with a false narrative. See United States v. Nobari, 574 F.3d 1065,

16

1079 (9th Cir. 2009) (noting that it would be improper to “accus[e] the defense of fabricating a

17

story”) (citing United States v. Sanchez, 176 F.3d 1214, 1224 (9th Cir. 1999)). In addition, the

18

prosecutor’s argument that defense counsel’s job “is to distract and to deflect” could easily be

19

taken as implying that defense counsel’s methods were underhanded or unethical. See Frederick,

20

78 F.3d at 1380 (improper to argue that defense counsel was asking the jury not to see the truth).

21

Nonetheless, the undersigned cannot conclude that in the context of the entire trial the

22

prosecutor’s brief statement in his rebuttal argument affected the fairness, integrity, or public

23

reputation of the proceedings. Accordingly, the court declines to grant a new trial on this basis.

24

D.

25

Cumulative Error
Finally, defendant identifies numerous additional passages from the government’s closing

26

argument that, in defendant’s view, collectively warrant the granting of a new trial. (See Doc.

27

No. 254 at 22–25.) Once again, however, at trial defense counsel did not object to any aspect of

28

the prosecutor’s closing arguments. The court therefore reviews for plain error.
15
B-20

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 16 of 19
Most of defendant’s additional objections relate to perceived mischaracterizations of the

1
2

evidence by the prosecution, or touch on comments made during argument that, at worst, were

3

irrelevant in the undersigned’s view. None of the belatedly objected to statements of the

4

prosecutor in his closing arguments, either in isolation or collectively, amount to an error so plain

5

that it could be said to have seriously affected the jury’s verdict in this case.

6

E.

7

Defendants’ Motion for Discovery
Finally, the court addresses the parties’ post-trial discovery dispute related to

8

Government’s Trial Exhibit 28.13. Defendant now contends that the government failed to

9

produce this exhibit to the defense prior to trial, and because the evidence was withheld the

10

defendant is entitled to a new trial. (See Doc. No. 254 at 17–18.) Separately, defendant now

11

moves the court for an order requiring the government to produce Government’s Trial Exhibit

12

28.13 pursuant to Federal Rule of Criminal Procedure 16. (Doc. No. 260.)

13

To fully understand whether Government’s Trial Exhibit 28.13 was produced in discovery

14

or otherwise made available to the defense prior to trial, the court held an evidentiary hearing on

15

May 29, 2018. At that hearing the government called Detective Arthur Hively as a witness, while

16

the defense produced its computer forensic expert Marcus Lawson and paralegal Whitney Linder

17

as witnesses. Based upon this testimony, the court now understands the series of events as

18

follows. Exhibit 28.13 consisted of an image of an individual, apparently taken in defendant’s

19

bathroom by the hidden camera. That image was stored on defendant’s hard drive and was also

20

contained in a folder with twelve other images. After law enforcement officers seized

21

defendant’s hard drive, the image that became Exhibit 28.13 was made available to defendant for

22

inspection at the Ceres Police Department. This appears to have occurred no later than 2014,

23

long before the trial of this action. In addition, the image was also made available to the defense

24

at an FBI facility in Sacramento pursuant to a January 16, 2014 protective order in this case

25

issued by the previously assigned district judge. (Doc. No. 20.) In both his testimony at the post-

26

trial evidentiary hearing and in a subsequent written submission to the court, defense computer

27

forensic expert Lawson stated that he did inspect at least some of these images seized by the

28

government. (See Doc. No. 305.)
16
B-21

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 17 of 19
1

Much of the confusion regarding this image stems from the difficulty of identifying the

2

individual portrayed in it. Both parties now agree that the image depicts A.T., the primary victim

3

in this case, but that was not clear from an initial review of the image. According to the post-trial

4

testimony of Detective Hively, he did not make the determination that this image depicted A.T.

5

until roughly the middle of October 2017, only weeks before defendant’s trial began.2 Detective

6

Hively then advised the U.S. Attorney’s Office of his realization.3 Because of this uncertainty,

7

the defense appears to have overlooked this image when it conducted its review of the

8

voluminous contents of defendant’s hard drive.

9

In sum, the government made this image—along with thousands of other images and

10

videos that were stored on defendant’s hard drive—available for defense inspection years in

11

advance of trial. The defense does not dispute that the image was available for inspection during

12

that time, instead arguing that it was not affirmatively and specifically provided to them as having

13

any import until the parties exchanged trial exhibits immediately prior to trial. In addition, the

14

defense points out that although they were permitted to inspect this material, they were prohibited

15

from copying or removing any images containing child pornography. (Doc. No. 305.) The

16

question is whether this discovery procedure complied with Federal Rule of Criminal Procedure

17

16.

18

Rule 16 provides that upon a defendant’s request, “the government must permit the

19

defendant to inspect and to copy or photograph” various materials within the government’s

20

possession, custody or control if “(i) the item is material to preparing the defense; (ii) the

21

government intends to use the item in its case-in-chief at trial; or (iii) the item was obtained from

22

or belongs to the defendant.” Fed. R. Crim. P. 16(a)(1)(E). “In the Ninth Circuit, federal

23
24
25
26
27
28

He did so when reviewing a video filmed by defendant’s hidden camera and realized, given the
background and other features, that this image was a screen shot of one of the hidden camera
videos taken of A.T. in defendant’s bathroom.
2

3

Unfortunately, it also does not appear that the prosecutor specifically pointed out the now
realized significance of the image but rather merely included it in the trial exhibit binders that
were produced to the defense just prior to trial. Had the prosecutor pointed out the government’s
then-recent realization to defense counsel, the court would not now be required to address this
issue.
17
B-22

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 18 of 19
1

prosecutors are deemed to have ‘possession and control’ over material in the possession of other

2

federal agencies as long as they have ‘knowledge’ of and ‘access’ to that material.” United States

3

v. Fort, 478 F.3d 1099, 1102 (9th Cir. 2007) (citing United States v. Santiago, 46 F.3d 885, 893

4

(9th Cir. 1995)). There is no doubt that the images seized from defendant’s hard drive fall within

5

the ambit of this Rule, since they were seized from defendant himself. However, in 2006,

6

Congress passed the Adam Walsh Child Protection and Safety Act (the “Walsh Act”),

7

establishing different procedures for the handling of child pornography discovery. In relevant

8

part, the Walsh Act states that “[i]n any criminal proceeding, any property or material that

9

constitutes child pornography (as defined by section 2256 of this title) shall remain in the care,

10

custody, or control of either the Government or the court.” 18 U.S.C. § 3509(m)(1). Further, the

11

Walsh Act provides that

12

Notwithstanding Rule 16 of the Federal Rules of Criminal
Procedure, a court shall deny, in any criminal proceeding, any
request by the defendant to copy, photograph, duplicate, or
otherwise reproduce any property or material that constitutes child
pornography (as defined in section 2256 of this title), so long as the
Government makes the property or material reasonably available to
the defendant.

13
14
15
16

18 U.S.C. § 3509(m)(2)(A).

17

Neither party appears to contest that the Walsh Act applies to the material in dispute here.

18

Accordingly, the defense was not entitled to make copies of this material. Moreover, there

19

appears to be no dispute that the material was made “reasonably available to the defendant.” 18

20

U.S.C. § 3509(m)(2)(A). The defense was given the opportunity to inspect Exhibit 28.13, both at

21

the Ceres Police Department and at the Sacramento FBI Field Office. Under the Walsh Act, this

22

is apparently all that is required. Accordingly, defendant’s motion for discovery will be denied as

23

well.4

24

/////

25

/////

26
27
28

4

In keeping with the language of the Walsh Act, a protective order filed early on in this case
provided that materials which would be considered child pornography may not be copied or
removed from the Sacramento FBI Office by the defense. (Doc. No. 20.)
18
B-23

Case 1:13-cr-00409-DAD-BAM Document 306 Filed 07/13/18 Page 19 of 19
1

CONCLUSION

2

For the reasons set forth above:

3

1. Defendant’s motion for acquittal, or in the alternative for a new trial (Doc. No. 254), is

4

denied;

5

2. Defendant’s motion for discovery (Doc. No. 260) is denied; and

6

3. A sentencing hearing is hereby scheduled for August 6, 2018 at 10:00 a.m.

7
8
9

IT IS SO ORDERED.
Dated:

July 13, 2018
UNITED STATES DISTRICT JUDGE

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
19
B-24

Case: 18-10358, 02/04/2020, ID: 11584064, DktEntry: 52, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 4 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,

No.

Plaintiff-Appellee,

18-10358

D.C. No.
1:13-cr-00409-DAD-BAM-1
Eastern District of California,
Fresno

v.
ADAM ALAN HENRY,

ORDER
Defendant-Appellant.
Before: W. FLETCHER, CLIFTON, and MILLER, Circuit Judges.
The petition for panel rehearing is denied.

APPENDIX C

C-25

No.__________________
___________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
___________________________________________

ADAM ALAN HENRY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
PROOF OF SERVICE
I, WHITNEY LINDER, do swear or declare that on this date, JULY 3, 2020, as
required by Supreme Court Rule 29 I have served the enclosed PETITIONER’S
APPENDIX VOLUME ONE on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
United States Attorney General
AUSA David Gappa
2500 Tulare Street, Suite 4401
Fresno, CA 93721
david.gappa@usdoj.gov

Soliciter General of the USA
Room 5614, Dept. of Justice
950 Pennsylvania Ave., N.W.,
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov

I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 3, 2020

/s/Whitney Linder___________
Whitney Linder

